                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

    Case Number: IOS030021
                                                                                  I          Page 1 of 1



             Our office was contacted by a former lab employee1who alleged that a PI^ diverted funds from
             an NSF grant3to support other projects' salary and supplies expenses. Based on our review of
             financial documentation and the PI'S written response, we determined the allegation was not
             substantiated.

             We also performed a review of awards with cost overruns and determined the cost overruns were
             properly transferred to other institution4accounts. Accordingly, this case is closed.




              L
    NSF OIG Form 2 (1 1/02)

,
